CERTIFICATE OF WORD COUNT
NO. TBD
IN RE: I80 EQUIPMENT, LLC,
Debtor.
JEANA K. REINBOLD, NOT INDIVIDUALLY BUT SOLELY IN HER CAPACITY AS
CHAPTER 7 TRUSTEE OF THE ESTATE OF I80 EQUIPMENT, LLC,
Petitioner,
v.
FIRST MIDWEST BANK,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above captioned matter contains 5,015 words, including the parts of the brief that
are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
January 8, 2020

SCP Tracking: Reinbold-1100 S. 5th Street-Cover White

